<html>
<title> - [H.A.S.C. No. 112-98]UPDATE ON ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-98]


 
        UPDATE ON ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY

                               __________

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                          meeting jointly with

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 3, 2012

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
72-936                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a>  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
                 John Chapla, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                       Jim Weiss, Staff Assistant

                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  MARK S. CRITZ, Pennsylvania
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
               Michele Pearce, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                     Arthur Milikh, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Friday, February 3, 2012, Update on Accountability at Arlington 
  National Cemetery..............................................     1

Appendix:

Friday, February 3, 2012.........................................    25
                              ----------                              

                        FRIDAY, FEBRUARY 3, 2012
        UPDATE ON ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY
STATEMENTS PRESENTED BY MEMBERS OF CONGRESS<greek-l>Mr. Cooper said he 
                            had no statement

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Oversight and Investigations...........0 deg.
Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1
Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     3

                               WITNESSES

Condon, Kathryn A., Executive Director, Arlington National 
  Cemetery.......................................................    10
Lepore, Brian J., Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     8
Martin, Belva M., Director, Acquisition and Sourcing Management, 
  U.S. Government Accountability Office..........................     6
Vangjel, LTG Peter M., USA, Inspector General, Office of the 
  Secretary of the Army..........................................     4

                                APPENDIX

Prepared Statements:

    Condon, Kathryn A............................................    77
    Davis, Hon. Susan A..........................................    32
    Martin, Belva M., joint with Brian J. Lepore.................    55
    Vangjel, LTG Peter M.........................................    36
    Wilson, Hon. Joe.............................................    29
    Wittman, Hon. Rob............................................    34

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
        UPDATE ON ACCOUNTABILITY AT ARLINGTON NATIONAL CEMETERY

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Military Personnel, 
            Meeting Jointly with the Subcommittee on 
            Oversight and Investigations, Washington, DC, 
            Friday, February 3, 2012.

    The subcommittees met, pursuant to call, at 11:51 a.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the Subcommittee on Military Personnel) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Welcome, ladies and gentlemen, and thank you 
for being here today. Today the Military Personnel Subcommittee 
and the Oversight and Investigations Subcommittee continue 
their oversight of actions to improve the operation and 
sustainment of the Arlington National Cemetery, a national 
shrine which indicates our sincere appreciation of service 
members, military families, and veterans.
    The testimony today is based on reports directed by the 
Congress and delivered in December by the Army and the 
Government Accounting Office. In general, both reports reflect 
substantial improvement in a number of areas of management and 
contracting execution. That progress reflects not only the 
personal commitment of our former colleague Secretary John 
McHugh, but also the professionalism and commitment of Ms. 
Kathryn Condon, the Executive Director of the Army National 
Cemeteries Program, and Mr. Patrick Hallinan, the 
Superintendent of Arlington Cemetery.
    As I look at the issues that still must need to be 
addressed, these two appear to rise above all the rest: First, 
what is the corrective action and funding that will be required 
to resolve the nearly 14,000 critical deficiencies cited in the 
Arlington grave accountability effort? And second, should the 
Department of Veterans Affairs assume responsibility for 
Arlington National Cemetery and the cemetery at the Soldiers' 
Home here in the District of Columbia?
    Before I introduce our witnesses, let me recognize in turn 
Representative Susan Davis, the ranking member of the Military 
Personnel Subcommittee; and Chairman Rob Wittman of the 
Oversight and Investigations Subcommittee; and Mr. Jim Cooper, 
the ranking member of the Oversight and Investigations 
Subcommittee, for any opening remarks they might wish to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman. I appreciate the 
hearing today.
    General Vangjel, I wanted to welcome you. I understand you 
recently took over from General McCoy as the Army inspector 
general.
    Ms. Martin and Mr. Lepore, I look forward to hearing the 
Government Accountability Office [GAO] assessment of the Army's 
efforts with respect to Arlington.
    And, Ms. Condon, welcome back. We have had a chance to see 
each other quite a bit, and I really appreciate your efforts.
    Arlington National Cemetery, as we all know, is one of the 
most hallowed grounds of this Nation, and we must hold it to 
the highest standards of performance. Members of the 
Subcommittee on Military Personnel in conjunction with the 
Oversight and Investigations Subcommittee are interested in the 
actions taken by the Army to improve its accountability of 
Arlington National Cemetery since our hearing in September.
    Ms. Condon, I recognize the hard work you and Mr. Hallinan 
have done to turn around the cemetery, and I know that you 
could not have done it alone. There are probably a number of 
people that should be acknowledged for their efforts that could 
not all be recognized here today.
    But I do believe that there is still more to be done to 
ensure that we maintain and build upon the achievements that 
have been made, and to ensure, above all, accountability of 
those who were involved in the missteps at Arlington National 
Cemetery.
    Ms. Martin and Mr. Lepore, I am interested in learning from 
the GAO what issues and concerns should the committee be aware 
of as the Army works to develop a strategic plan for Arlington. 
What signs, if any, should we be tracking as the Army moves 
forward on its efforts to continue to improve Arlington? And I 
would also like to hear your thoughts on what concerns we 
should be aware of if there is an effort to transfer the 
management of Arlington from the Army to the Veterans 
Administration.
    General Vangjel, I would be interested in the IG's 
perspective on Arlington and what can be done to build upon the 
improvements that have recently been made.
    Thank you all for being here. This is an important issue 
and one that touches all who serve our Nation in uniform.
    Thank you, Mr. Chairman.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 32.]
    Mr. Wilson. Thank you, Ranking Member.
    And Chairman Wittman.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
     CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Wittman. Panel members, welcome. I want to thank my co-
chair, Chairman Joe Wilson, and our ranking members, Jim Cooper 
and Susan Davis, for their steadfast commitment and their focus 
on this extraordinarily important issue. It has been an honor 
to work with you over the months, and we look forward as we 
continue along this journey of making sure that collectively we 
all do what is necessary to make sure Arlington maintains its 
rightful place in honoring this Nation's heroes.
    I would also like to extend a very warm welcome to General 
Vangjel. Thank you so much for your leadership and for your 
oversight of Arlington. We know it is a new challenge for you, 
but one that you are ready and up to the task.
    Ms. Condon, I want to thank you and your team, who have met 
with us on a monthly basis to keep us apprised of progress. We 
appreciate your dedication. We know it has been a long, arduous 
journey, with more steps to come. I would like to also 
highlight my appreciation for what you do in total for the 
Army, what you have done through your career, and what you have 
done to this point. Army leadership has done a lot to change 
the culture and climate at Arlington.
    And I also want to thank Secretary McHugh. He is a person 
of steadfast devotion on getting this issue solved. He is 
certainly a man of his word. He said early on that this was 
going to be his focus. I admire him for that focus, for his 
commitment, for his dedication to making sure that Arlington 
again goes back to its rightful place in honoring this Nation's 
heroes. So I want to thank the Secretary for that.
    This was an organization that was characterized by 
deficiencies and mismanagement that has since been transformed 
into a stable, functioning, and professional organization that 
is finally setting a new standard for how we care for our 
fallen heroes.
    Mr. Brian Lepore and Ms. Belva Martin, thank you for 
coming. We appreciate your efforts there at the GAO. And we 
know, as always, the GAO does an excellent job, and we 
appreciate your service.
    We are here today for two very important reasons: First, to 
figure out what progress has been made with respect to 
accountability issues at Arlington, and to determine what 
challenges remain that need to be addressed moving forward.
    I have said many times how important it is to me personally 
that we work to achieve 100 percent accountability, and the 
Army has done a great job with helping us get there with the 
Gravesite Accountability Task Force. Validating almost 200,000 
gravesites was difficult and challenging, but you, your staff, 
and the Old Guard got it done.
    However, I do remain concerned about a number of issues. 
First, the lack of accountability with respect to former 
officials for their misconduct. It is my understanding that no 
criminal action has been taken, and that investigations are 
ongoing and open. I find this very, very difficult to believe 
and unacceptable, and I will continue to follow this very 
closely.
    Second, despite the great amount of time that has elapsed 
since initial allegations came to light, management and 
contracting issues persist at Arlington. To highlight just a 
few, I am concerned about the GAO's findings regarding the lack 
of a strategic plan, the lack of IT [information technology] 
organizational architecture, which call into question whether 
we are effectively and efficiently spending taxpayers' dollars 
at the cemetery when millions of dollars have already been 
spent. I hope this panel will address these issues. And I also 
hope you will tell us what progress has been made and what you 
believe we will find in finally trying to resolve these 
remaining matters.
    We cannot close the door on this terrible chapter at 
Arlington until all of these issues are resolved. We owe it to 
our Nation's heroes who have sacrificed their lives on our 
behalf, and continue to make this a top priority, and as you 
have done in the past, we need to get this done. And we owe it 
to our future generations of heroes who deserve the honor of 
being buried here and knowing that Arlington is again assuming 
its rightful place as the hallmark of honoring this Nation's 
heroes.
    Mr. Chairman, thank you.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 34.]
    Mr. Wilson. Thank you very much.
    And Mr. Cooper.<greek-l>

    STATEMENT OF THE HON. JIM COOPER, A REPRESENTATIVE FROM 
   TENNESSEE, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                      INVESTIGATIONS deg.

    Mr. Cooper. Thank you, Mr. Chairman. I have no opening 
statement.
    Mr. Wilson. And at this time we will proceed with our 
witnesses. The order would be Lieutenant General Peter M. 
Vangjel, the Inspector General of the U.S. Army. Next would be 
Ms. Belva Martin, Director, Acquisition and Sourcing Management 
Team, U.S. Government Accountability Office; and third we would 
have Mr. Brian J. Lepore, Director of Defense Capabilities and 
Management, U.S. Government Accountability Office; and fourth 
and finally, we would have Ms. Kathryn Condon, who is the 
Executive Director of the Army's National Cemeteries Program.
    And so, General, thank you for beginning.

  STATEMENT OF LTG PETER M. VANGJEL, USA, INSPECTOR GENERAL, 
              OFFICE OF THE SECRETARY OF THE ARMY

    General Vangjel. Chairman Wilson, Ranking Member Davis, 
Chairman Wittman, Ranking Member Cooper, and distinguished 
members of the subcommittees, thank you for the opportunity to 
speak to you today, and thank you for your oversight and 
support over the past 18 months. It has made a difference at 
Arlington National Cemetery.
    Since assuming the duties of the Army Inspector General in 
November, I have reviewed our previous inspections, met with 
the Executive Director and her team and other stakeholders who 
have been involved in correcting the deficiencies found at 
Arlington. I think to fully appreciate the progress that has 
been made, one only has to review the 2010 IG report, which 
identified 61 deficiencies, among them being a deplorable 
organizational climate, archaic recordkeeping and automation 
systems, uncontrolled contracting and budgeting processes, and 
significant problems with gravesite accountability.
    In contrast, you may recall from General McCoy's testimony 
that the 2011 IG report identified no deficiencies, and noted 
significant progress at the cemetery largely due to the course 
set by the Secretary of the Army's Directive 2010-04, the 
efforts of the Executive Director and her team, and the support 
from the Department of the Army's staff. In short, the 
mismanagement reported to you in the June 2010 IG report has 
been relegated to the past, and Arlington is beginning to 
transition from successful crisis management to sustained 
excellence.
    Allow me to just share a few specifics. The previous 
insular environment that contributed to mismanagement and 
substandard performance at Arlington has improved 
significantly. The Executive Director has established a 
positive work environment, emphasizing cooperation, 
collaboration, and coordination. Workforce surveys taken as 
part of the 2011 inspection did reflect steadily improving 
morale, unity, and organizational effectiveness.
    The cemetery now possesses a functional information 
technology infrastructure, supported by a service agreement 
with the Army's Information Technology Agency. Arlington has 
leveraged the Agency's Consolidated Customer Service Center to 
more effectively monitor and respond to customer calls, which 
is increasing customer service. A new computer application for 
digitizing burial records has been critical in establishing the 
accountability baseline for each gravesite and inurnment niche.
    In the contracting arena, new acquisitions are subjected to 
rigorous analysis, pre-award compliance checks, and contract 
packet reviews for quality assurance. While we still noted some 
deficiencies and errors within contracts, the number was 
significantly less than 2010, mostly administrative in 
documentation.
    Arlington now works closely with the Office of the 
Administrative Assistant and the Assistant Secretary of the 
Army for Financial Management to ensure improved oversight of 
the cemetery's budget formulation and execution. The transition 
to the General Fund Enterprise Business System has provided 
full visibility and transparency of cemetery expenditures.
    Finally, with respect to improvements, the Executive 
Director has recently published a campaign plan which includes 
major efforts to complete gravesite accountability, complete 
the documentation of policies and procedures, and addresses 
long-term expansion of the cemetery. It assigns 
responsibilities for these and other tasks as well, with 
metrics and timelines to measure progress.
    While these developments are encouraging, there is still 
much more work to do. The 2011 Army IG inspection report 
provided 53 recommendations for continued improvement at 
Arlington. I will highlight a few required key actions.
    First of all, Arlington's leadership and the Army must 
finish updating relevant policies and regulations. Further, the 
Arlington leadership must complete the documentation and 
validation of internal oversight processes and controls. The 
recent work to establish the gravesite accountability baseline 
must continue to resolve the nearly 47,000 cases that remain.
    The Executive Director must coordinate with the Army staff 
to establish and document enduring external oversight processes 
to prevent the recurrence of past shortcomings.
    The Department of the Army must also finalize and implement 
enduring jurisdictional, organizational, and support 
relationships of the Army National Cemeteries Program.
    As we look to our inspection this summer, we intend to 
conduct assessments in several areas: first of all, compliance 
with Army Directive 2010-04; progress in addressing the 
recommendations from our 2011 report; compliance with the 
Executive Director's campaign plan; the gravesite 
accountability process validation; and we are collaborating 
with the Army Audit Agency, the VA, and the United States Army 
Force Management Support Agency for their participation as well 
in this year's inspection.
    In conclusion, Arlington remains a priority for the 
Secretary and for the Army. The significant progress observed 
by the Army IG validates the Secretary's approach to creating 
the processes, systems and management that we found to be 
lacking at Arlington in 2010. This strategy, executed according 
to the Executive Director's campaign plan, with the support of 
the Army, the Defense Department, other Federal agencies, and 
Congress, has set the conditions for continued improvement and 
ultimately sustained excellence.
    Thank you once again for the opportunity to testify today. 
I look forward to answering your questions and working with the 
committees in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of General Vangjel can be found in 
the Appendix on page 36.]
    Mr. Wilson. General, thank you very much.
    And Ms. Belva Martin.

    STATEMENT OF BELVA M. MARTIN, DIRECTOR, ACQUISITION AND 
   SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Martin. Chairmen Wilson and Wittman, Ranking Members 
Davis and Cooper, members of the subcommittee, thank you for 
the opportunity to appear before you to discuss GAO's work at 
Arlington.
    Our reviews found that Arlington has taken significant 
actions to address its problems, and that the path forward, as 
you stated, Chairman Wilson, is for Arlington to sustain 
progress through improved management and oversight. My 
colleague Mr. Lepore will discuss GAO's work on management 
issues.
    On the contracting side, GAO identified 56 active contracts 
over $100,000 that supported cemetery operations, construction 
and facility maintenance, and new efforts to enhance IT systems 
for the automation of burial operations. Arlington does not 
have its own contracting authority, but relies on relationships 
with contracting offices to award and manage its contracts. 
These contracting authorities obligated roughly $35.2 million 
in support of the 56 contracts that were included in our 
review.
    And as the IG has noted, the Army has taken a number of 
positive steps since June 2010 at different levels to provide 
for more effective management and oversight of contracts, 
including improving contracting policies and practices, 
establishing new support relationships, formalizing policies 
and procedures, and increasing the use of dedicated contracting 
staff to manage and improve its acquisitions.
    However, GAO found three areas at Arlington where 
additional improvements are needed: first, maintaining complete 
data on contracts; second, defining responsibilities for 
contracting support; and third, determining contract staffing 
needs. I will briefly summarize key findings in these three 
areas.
    First, with respect to maintaining complete data, when we 
did our review, we were able to pull together information on 
Arlington contracts from various sources, including support 
organizations, but there were shortcomings with each of these 
sources. To be able to identify, track, and ensure the 
effective management and oversight of its contracts, Arlington 
leadership needs complete data on all contracts.
    Second, with respect to support relationships, the Army has 
taken a number of steps to better align Arlington contract 
support with the expertise of its partners. For example, 
Arlington has agreements with the Army Information Technology 
Agency, ITA, and the Army Analytics Group to help manage its IT 
infrastructure. While these agreements spell out the services 
that ITA will provide to Arlington, and performance metrics 
against which ITA will be measured--these are all very positive 
steps--these agreements do not specifically address ITA's 
contract management roles and responsibilities in support of 
Arlington's requirements. Although officials told us that they 
were aware of their roles and responsibilities, the question 
is, what happens when personnel changes? Going forward, 
sustained attention on the part of Arlington and its partners 
will be important to ensure that contracts of all types and 
risk levels are managed effectively.
    Third, with respect to dedicated contract staffing 
arrangements, three contract specialist positions have been 
identified for Arlington, but have not been filled. Arlington 
is presently receiving support from Fort Belvoir's contracting 
office in the form of 10 positions, 5 funded by Arlington and 5 
by Fort Belvoir. Arlington officials have identified the need 
for a more senior contracting specialist and are developing 
plans to fill this new position in fiscal year 2013.
    In closing, the success of the Army's efforts to improve 
contracting and management at the cemetery will depend on 
management's sustained attention and efforts to 
institutionalize positive steps taken to date. Accordingly, we 
made a number of recommendations in our December 2011 report to 
improve contract management and oversight in the three areas 
where we found shortcomings. For the most part, DOD agreed with 
our findings and that there is a need to take actions, and 
provided timeframes for doing so. We will continue to monitor 
their progress.
    Mr. Chairman and members of the subcommittee, this 
concludes my short statement. I will be happy to answer 
questions.
    [The joint prepared statement of Ms. Martin and Mr. Lepore 
can be found in the Appendix on page 55.]
    Mr. Wilson. Thank you very much, Ms. Martin.
    We now have Mr. Brian Lepore.

 STATEMENT OF BRIAN J. LEPORE, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lepore. Thank you, Mr. Chairman.
    Chairman Wilson, Ranking Member Davis, Chairman Wittman, 
and Ranking Member Cooper, and members of the subcommittee, 
thank you for the opportunity to appear before you today to 
present our findings from our review of oversight and 
management of Arlington National Cemetery.
    As you know, we issued our report on the management and 
oversight of Arlington on December 15 of last year. My 
testimony is based on our report, and I will make two points 
today. First, I will discuss the policies and procedures that 
the current leadership team at Arlington has put into place to 
begin to address the deficiencies that became apparent, and I 
will identify some of our recommendations to help assist in 
that endeavor. And secondly, I will discuss some factors that 
could potentially affect the feasibility and advisability of 
transferring Arlington from the Army to the Department of 
Veterans Affairs, the VA.
    Here is the bottom line: I think it is fair to say the 
current leadership team at Arlington has taken many positive 
steps at the cemetery to address the deficiencies and make 
improvements. The Army has made progress in a range of areas, 
including chain-of-custody procedures, to ensure a proper 
accountability over remains, better providing information 
assurance, and improving procedures to address inquiries from 
the families and the public. However, we believe some steps are 
still needed to ensure that these changes are institutionalized 
and will prove lasting for the long term, long after the 
spotlight has faded. Therefore, we have made recommendations in 
six areas.
    First, we believe they should complete the enterprise 
architecture to guide new investments in information technology 
to ensure the investments are aligned with the future 
operational requirements; second, an updated workforce plan to 
ensure the workforce is properly sized and trained; third, an 
internal assessment program to gauge how the cemetery is doing, 
and making any improvements that may be warranted; fourth, 
improving coordination with the cemetery's operational 
partners, the Military District of Washington, the military 
honor guards, and Joint Base Myer-Henderson Hall to ensure, for 
example, that scheduling conflicts are avoided and the right 
honor guards are available when needed; fifth, a strategic plan 
or campaign plan with expected outcomes, performance metrics, 
and milestones; and sixth, written policies explaining how to 
assist the families when such assistance is warranted.
    The cemetery leadership has generally concurred with our 
recommendations and has begun to implement them. We are 
encouraged by this.
    Now my final point: the question of the feasibility and 
advisability of transferring Arlington from the Army to the VA. 
It is certainly feasible. As you know, Congress transferred 
more than 80 national cemeteries managed by the Army to the VA 
in the 1970s. However, several factors could affect the 
advisability of this. Such a change can have potential costs 
and benefits challenges. It can lead to certain transition 
challenges, and can affect the characteristics that make 
Arlington unique among our national cemeteries. Thus, it may be 
premature to change jurisdiction right now since the Army has 
significantly improved its management of Arlington.
    Here are some of the specific challenges that could arise 
in a jurisdictional change. First, simply identifying the goals 
of the transfer.
    Second, the Army and the VA have their own staff, 
processes, and systems to determine burial eligibility, and 
scheduling and managing burials. As an example, Arlington has 
more restrictive eligibility for in-ground burials than the VA.
    Third, Arlington's appropriations structure is different 
than the VA's, and should you make a jurisdictional change, the 
Congress may wish to review that and determine what is the 
right course of action.
    Fourth, Arlington provides military funeral honors, but the 
VA does not.
    Fifth, Arlington hosts many special ceremonies every year, 
some involving the President and visiting heads of state.
    And sixth, Arlington is one of the most visited tourist 
destinations in Washington, hosting over 4 million visitors a 
year.
    Finally, we do think opportunities exist for the Army and 
the VA to collaborate more for the mutual benefit of both 
organizations, but, most importantly, for the benefit of our 
Active-Duty service members, our veterans, and their families.
    Here are some examples. VA has staff dedicated to 
establishing eligibility for burial in their cemeteries and a 
central scheduling center that could assist Arlington. 
Conversely, VA officials are examining whether geographic 
information system or global positioning system technology 
should be used in their cemeteries, but the Army already does 
this and could conceivably provide assistance to the VA. Since 
no formal mechanism exists yet to identify collaboration 
opportunities, we recommended that the two departments 
establish one, and they agreed.
    In conclusion, we believe the Army has worked through the 
crisis and taken steps to put Arlington National Cemetery on a 
sustainable path to ensure effective cemetery operations. Our 
recommendations are offered in the spirit of assisting that 
process along so that we never have to come before you again to 
have this conversation.
    Mr. Chairman, that concludes my prepared remarks, and I 
would be happy to answer any questions that you or the other 
members of the subcommittee may have.
    [The joint prepared statement of Mr. Lepore and Ms. Martin 
can be found in the Appendix on page 55.]
    Mr. Wilson. Thank you, Director Lepore. And I want to thank 
Director Martin. Both of you were very helpful. And I even 
appreciated your final comment that you didn't want to have to 
come back. Truly, you are helping make that possible. So thank 
you.
    The Arlington Executive Director Ms. Kathryn Condon.

 STATEMENT OF KATHRYN A. CONDON, EXECUTIVE DIRECTOR, ARLINGTON 
                       NATIONAL CEMETERY

    Ms. Condon. Chairman Wilson, Chairman Wittman, and 
distinguished members of both subcommittees, thank you for the 
opportunity to appear before you today to discuss the progress 
that we have made at Arlington National Cemetery. As both of 
the chairmen and Ranking Member Davis and Cooper both know from 
our monthly updates, there still is a lot of work left that we 
have to do at Arlington, but the Army and the entire cemetery 
are prepared to address the challenges that remain. But today, 
significant progress has been made, progress as a result of our 
concerted focus on establishing repeatable standards, measures, 
and operating procedures that emphasize safety, proficiency, 
professionalism, and accountability.
    The implementation of state-of-the-art technology now makes 
the hallowed grounds of Arlington one of the most 
technologically advanced cemeteries in the country, a different 
perspective than 19 months ago, when the cemetery lacked fiscal 
stewardship; was a paper-based operation using a typewriter and 
having only one fax machine; when calls were not answered; and 
the workforce was not properly manned, trained, or equipped. 
But practicing sound fiscal stewardship and displaying 
transparency of cemetery operations is paramount in our effort 
to restore the faith, trust, and honor our veterans and their 
families so rightfully deserve.
    A formal chain-of-custody process has been implemented to 
maintain positive, verifiable control of remains throughout 
both the interment and inurnment process at the cemetery. And 
we have reviewed years of financial records and recovered 
funds, $26.8 million to be exact, funds that were fully used to 
fully fund, as you know, Chairman Wittman, the construction of 
the ninth columbarium and to make the necessary improvements to 
years of backlogs of maintenance and repair. You have my 
commitment that we will continue to examine prior-year funding 
records to see if there are more dollars that can be recovered 
to put back into Arlington.
    In the accountability report recently submitted to this 
Congress, we have examined and photographed 259,978 gravesites, 
markers, and niches. The Accountability Task Force compiled 
those photos and coupled them with our existing records, and 
for the first time we now have consolidated 147 years of 
cemetery records, records that were created from logbook 
entries, our paper-based records of interment and grave cards 
that we used to have in our interment scheduling base but are 
no longer there, and the automated records that we did have, 
and we now have them into a single, accountable database.
    Since the submission of the report, the total validated 
gravesites without any burial discrepancies in evidence is now 
212,674, and we are working diligently to continue to close the 
remaining 18 percent of the cases to bring our efforts on 
accountability to closure.
    The creation of the single, complete, verifiable database 
will soon allow families and other stakeholders with Internet 
access to search and produce a picture of each and every marker 
in the cemetery, and to review that with publicly available 
information pertaining to each gravesite. They can do this on 
our state-of-the-art Web site and soon-to-be smartphone 
application that we will be launching to the public.
    In the area of contracting, we have made significant 
progress in contract management, transforming our contracting 
activities to position the Army National Cemetery's program for 
long-term sustainment. The Army has resourced our contracting 
support and oversight, adding skilled acquisition support 
personnel to support my staff, and properly training the 
workforce involved in the acquisition process.
    In order to orchestrate the many activities required to 
effectively run Arlington, we have developed the Army National 
Cemeteries Campaign Plan, which codifies in one strategic 
document the long-term vision for the operation of the cemetery 
at both Arlington and the Soldiers' and Airmen's Home. It is 
the vehicle that the superintendent Pat Hallinan and I will use 
to ensure that we do achieve our future vision for the 
cemetery. It incorporates the significant guidance, support, 
and recommendations we have received from Secretary McHugh, 
from the GAO, from the Army inspector general, from the Army 
Audit Agency, from the Northern Virginia Technology Council, 
and from distinguished Members of Congress, in particular 
members of this committee.
    Coupled with the campaign plan, we are developing our 
Enterprise Architecture and Technology Acquisition Roadmap, 
which will serve as our IT blueprint and ensure our IT 
investments are effectively and efficiently meeting the needs 
of the organization well into the future.
    In conclusion, I personally wish to thank both committees 
again for your leadership and monthly guidance as we restore 
honor and dignity to Arlington National Cemetery. I look 
forward to your questions.
    [The prepared statement of Ms. Condon can be found in the 
Appendix on page 77.]
    Mr. Wilson. Thank you very much.
    And at this time we will proceed to questions from each 
member of both of the subcommittees, and we will be on a strict 
5-minute rule. This will be upheld by Mr. John Chapla, who is a 
professional staff member of the Armed Services Committee and 
above reproach. He is very good about keeping the 5-minute 
rule, including with both chairmen.
    And at this time I would like to ask Ms. Condon, first of 
all, it is exciting, and I hope people do hear the good news 
that you can access records now by the Internet. As a person 
who has a direct family member there, it means a lot to me as a 
citizen of our country and also as a Member of Congress.
    In your report you have identified that more than 57,000 
grave discrepancies still have to be resolved. I would like you 
to focus on what the most serious are, and particularly the 
14,000 critical discrepancies. What is the corrective action 
timeline and funding required to address the critical 
deficiencies?
    Ms. Condon. Mr. Chairman, in our accountability what we 
have done is we started the process with business rules. And 
one of our business rules, to match the photo that the Old 
Guard took of each and every gravesite and niche, was that we 
had to match that with at least two records. Most of those 
14,000 discrepancies, which are really not discrepancies per 
se, means that we didn't have two records; we only had one 
record. We are finding that from the Civil War we only had one 
document, which was the document in the handwritten transcribed 
logbook.
    But what our Accountability Task Force did, and they ended 
at the 22nd of December, but we now have 45 analysts. Most of 
them are temporary employees, who have dedicated themselves to 
looking at the Social Security Death Index, to look at census 
data, to look at military records, to go on Ancestry.com to 
make sure that we could find another record so that we could 
validate the information that we have on the gravesite and 
headstone. And that incorporates most of what that 14,000 is.
    Mr. Wilson. Well, that is very creative, and I am delighted 
to hear that.
    Additionally, there have been press reports that $12 
million of what were previously appropriated funds could not be 
found. And then you have indicated that you have recovered 
$26.8 million. Could you tell us how the recovery was done, 
whether there are any other unobligated funds still to be 
found? And how is this situation of unobligated funds to be 
prevented in the future?
    Ms. Condon. Well, sir, I can first start by talking how the 
$12 million came about.
    On page 15 of Ms. Martin's GAO report on contracting, they 
cited a 2010 Army audit that said that $15 million was--of 
unliquidated obligations was recovered. So if you take the 
total of the amount that we have found and subtract the $15 
million, you get $12 million that they said was unaccounted 
for.
    Sir, that was not unaccounted for. We recovered all of that 
$26.8 million, because the IG reports, the Army audit reports, 
and the GAO reports were all snapshots in time. And that data, 
you know, we were continuing to recover those funds. How did 
the staff? My resource management staff has been working 
meticulously to look at each and every contract to make sure 
that we close out those contracts and recover funds, and to 
also look at each and every MIPR [Military Interdepartmental 
Purchase Request], which is when you give money out to an 
organization to provide support, to make sure that we close out 
and bring back those dollars. That is how we were able to 
recoup the $26 million that we found.
    Mr. Wilson. I want to congratulate you. I can't imagine 
recovering that much money. So I am very, very pleased.
    For everyone, and it can be very brief since my time is 
brief, should the Department of Veterans Affairs assume 
responsibility for Arlington National Cemetery and the cemetery 
at the Soldiers' Home here in the District of Columbia? And we 
will begin this time with General Vangjel.
    General Vangjel. Thank you, Mr. Chairman.
    I think that we need to take a good look at this and a more 
detailed look. I concur with what the GAO has brought up 
already. As I take a look at it, I think, though, that right 
now the Army should keep it. And the bottom line is 
collaboration is probably better at this point, at least for 
the next few years, and then we will take another look. And we 
will do whatever the President and Congress want us to do.
    Mr. Wilson. Thank you.
    Ms. Martin. I will defer to my colleague.
    Mr. Lepore. Yes, Mr. Chairman. As we noted in our report, 
given the progress the Army has made, and given the potential 
short-term costs of actually doing a transfer, it seemed to us 
that it might be more prudent to give the Army a chance to see 
if they can complete their progress and bring this through to a 
successful conclusion. And you will have a pretty good idea how 
they do when General Vangjel and his team come back in later 
this year. So it seemed to us that right now making that 
decision might be a little premature.
    Mr. Wilson. Thank you.
    And Ms. Condon.
    Ms. Condon. Chairman Wilson, I am not going to answer this 
parochially. My job was to put in place, to fix Arlington for 
our veterans and their loved ones. The decision on where 
Arlington is placed, all I can tell you, sir, is if it is 
transferred, you will have a fixed, much improved Arlington.
    Mr. Wilson. Well, thank you all. And we now proceed to the 
ranking member, Susan Davis of San Diego, California.
    Mrs. Davis. Thank you.
    To you, General Vangjel, if you were to give Arlington a 
grade right now, what would that be?
    General Vangjel. I have had a chance to go down and 
essentially talk to some people, and I have looked at some past 
reports. I haven't had a chance to look at it in depth like I 
am going to do this summer with the inspection team as we go 
down. What I can say is that being deployed for the past 2 
years, as I heard what was going on at Arlington, I would have 
to give them a zero with what I heard. I have to be honest with 
you, because it is just not something--it was inconceivable 
that that was happening, because what I saw was there were very 
respectful ceremonies. It seemed to be going well.
    I will say, though, that looking at the progress that has 
been made, and, as I say, I go back and look at the reports 
that the Department of the Army IG has done, there have been 
two now, there has been significant progress. So if you are 
asking me to put it on a number scale, ma'am, that would be 
difficult for me to do at this point because I don't usually 
give tens. So I would have to say that they are probably 
around--they are better than five.
    Mrs. Davis. Of what you know, and certainly from the 
testimony today, one of the things I kept hearing was about 
staffing issues and making sure that the issues around that are 
really sustained so that no matter who is there, you know, that 
those issues are addressed. Is that one that would certainly 
improve their grade, or is there anything else that really 
stands out to you from all that has been said?
    General Vangjel. In 2010, we identified the fact that they 
just--the staff wasn't robust enough to be able to do the jobs 
that they were being asked to do, particularly from an 
oversight function. We recommended that the Army Force 
Management Support Agency and the United States Army Manpower 
Analysis Agency come down, take a look. They did. They made 
recommendations. And the Secretary of the Army authorized an 
increase of about 63 personnel, I believe. And Ms. Condon has 
been hiring folks. I don't believe she has got them all yet. I 
defer to her for the actual status.
    In my mind, it is the documentation of SOPs [standard 
operating procedures], internal process controls. If I had to 
say what really in my mind influences the score, if you will, 
the service to the families is remarkable. They are doing a 
good job with that. Ceremonies have always been done well. In 
fact, in one circumstance you could argue that the fact that 
they were done well caused a lack of oversight in some other 
areas. There was an assumption that everything was okay. And as 
you take a look at that, though, I think at the end of the day, 
it really is about establishing, documenting, and routinizing 
these processes that they have made so much progress with so 
far. But it is all about making sure that the SOPs match 
execution right now. That is where we are at.
    Mrs. Davis. Thank you very much.
    Ms. Martin, you mentioned in your testimony the need for 
contracting specialists and certainly for senior staffers as 
well. And I am just wondering what do you think is a reasonable 
timeframe to--if we look back 6 months from--or look forward 6 
months from now, should those issues be addressed by then, or 
should it be 3 months, a year? What is reasonable to assume 
that a lot of these areas have been addressed?
    Ms. Martin. Well, Congresswoman, I would certainly have to 
defer to the leadership at Arlington. To her credit, Ms. Condon 
has identified the need for a more senior contracting 
specialist, and she has taken some steps to get that in 2013. 
My understanding is there is a process to do that. So she has 
already put the steps in place.
    The fact that she is getting the support that she needs 
from Fort Belvoir at the present time is certainly a positive. 
But our point would be that at some point if there is another 
urgent need within the Army, that support may not be there for 
Arlington. So as we have been saying, that it is important, 
again, to put the policies, procedures, have the right people 
in place in order to sustain. So sustainment, again, is the 
key. But Ms. Condon has certainly, and her team have certainly 
taken the steps to identify what she needs, and to hopefully 
bring those people on board.
    Mrs. Davis. Thank you.
    Ms. Condon, what do you think is a reasonable timeframe to 
come back and be sure that, you know--6 months? Is that 
reasonable? Or 3 months?
    Ms. Condon. Six months is fair. Ma'am, we are currently in 
the process of hiring that senior contracting professional to 
be personally on my staff. The reason why I am very comfortable 
with the agreement we have now with the Army Contracting 
Command, with having them provide our contracting support, 
because that means that we have trained acquisition 
professionals who are in the acquisition chain, so that I will 
make sure that they have the right training, the right 
credentials, the right levels of certification, and the right 
warrants. Because Arlington really isn't that large of an 
organization to have a large contracting structure embedded in 
our TDA [Table of Distribution and Allowances]. So if I have 
the one senior professional on the staff personally and then 
reach back to the Contracting Command for support, I think that 
will satisfy the contracting oversight and requirements that we 
will need at the cemetery.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Ms. Davis.
    And we proceed now to Chairman Rob Wittman of Virginia.
    Mr. Wittman. Thank you, Mr. Chairman.
    Ms. Martin, I want to begin with you. I find it interesting 
in the report you speak about contract management and 
deficiencies there at Arlington with contract management. 
Specifically in the area of IT, it appears as though about $5 
million spent in IT contracts that appear to be wasteful and 
haven't produced any results. And on page 9 of the report, you 
have said that the IT contract management system is not guided 
by a modernization blueprint, and that it is duplicative, 
poorly integrated, and unnecessarily costly to maintain.
    From that standpoint, what did your review uncover in 
specific terms about why you believe that was occurring, as 
well as what are the current efforts to overcome those 
deficiencies? Where are they in this modernization effort to 
make sure there is not duplication and that systems aren't 
unduly costly to maintain those efforts?
    Ms. Martin. Thank you, Chairman, for the question. And it 
actually spans both of the reports. The external reviews found 
that the over $5 million that had been spent to try to 
modernize the IT systems really didn't get us very much. And 
there were a number of reasons, starting from some basic stuff 
like the people who were executing the contracts were not 
properly trained and did not have the right experience. And Ms. 
Condon kind of referred to the importance of doing that up-
front planning for contracts.
    And a couple of the systems really did not get us very much 
in terms of trying to modernize. As a part of the mandate, we 
were required to look at five particular systems that were 
called out, and what we found is that two of these systems are 
active, and those two are the interment scheduling system and 
the geographic information system. That is the one that Ms. 
Condon and my colleague referred to to be able to use GPS to do 
the mapping, et cetera. One system is in use, the BOSS [Burial 
Operations Scheduling System] system. And that is a VA system. 
So it is not really an Arlington contract, but Arlington does 
use that system to order the headstones and the grave markers, 
but there is no payment to VA under that contract. And then the 
last two, the interment management system and the total 
cemetery management system, are the ones that we basically got 
nothing for in terms of the moneys that were spent.
    So there were a number of reasons in terms of, you know, 
the contracts not having the specific, again, oversight, the 
deliverables not being very clear, documentation, planning, 
oversight. So it spanned the gamut in terms of things that you 
would not want to do for contracts. And so in the oversight and 
management report, we made some specific recommendations in 
terms of having an architecture, and Mr. Lepore can talk a bit 
more about that.
    Mr. Lepore. Yes, Mr. Chairman. The point that my colleague 
Ms. Martin is making is we had made the point in our report 
that the cemetery staff took some very reasonable initial steps 
to deal with sort of immediate deficiencies, ensuring you have 
got a good firewall, and virus protection, and some pretty 
fundamental stuff, probably the things that needed to be done 
urgently. Very reasonable steps.
    Our point then was as the cemetery staff begins to 
transition to putting the organization on a long-term 
sustainable path, having a good plan that ties the future 
operational environment back to the technology investments will 
be needed, or what we call an enterprise architecture, would be 
an important step to make sure that for the long term the 
cemetery is on a sustainable path. They have begun that process 
and expect to complete it later this year.
    Mr. Wittman. Let me follow up on that long-term sustainable 
path. You also point out in the report that there is a lack of 
a strategic plan. It seems like to me an organization can't get 
to where it needs to be without a clear vision that is stated 
in the strategic plan. Can you tell me where you believe the 
deficiencies lie as far as not having that plan, what that 
means, and really where the organization there at Arlington 
needs to go with that plan?
    Mr. Lepore. Yes, I would be happy to. When we did the work, 
there wasn't a plan at that time. It turns out that the 
cemetery was working on one. Just a couple of weeks ago really 
we saw for the first time the Army's campaign plan as they call 
it, which is--that is their jargon, okay, good enough. And 
among the kinds of things we look for in a strategic plan are 
goals and objectives, where are you trying to take the 
organization; performance metrics so you have some way of 
knowing did I get there or not; and milestones that sort of 
force you--as sort of a forcing action to help you get there; 
and then a process to go back and look at yourself and figure 
out, did I get where I need to go?
    We just saw the campaign plan for the first time a couple 
of weeks ago. Ms. Condon and her staff were gracious enough to 
share it with us. So we haven't had a chance to fully review it 
yet since we just got it, but I can tell you it does seem to 
have the basic fundamentals that we would look for in such a 
plan.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Chairman Wittman.
    And we now proceed to Ranking Member Jim Cooper of 
Tennessee.
    Mr. Cooper. Thank you, Mr. Chairman.
    The title of this hearing is an ``Update on Accountability 
at Arlington National Cemetery.'' I am worried that we are 
hearing a whole lot more about accounting and bureaucracy than 
we are hearing about accountability.
    When I talk to folks back home, they think accountability 
means that somebody was in charge, and they had to account for 
what they did or did not do while they were in charge, and we 
are not hearing much about that. And to refresh everybody's 
memory, in July and August of 2009, the newspaper, the 
Washington Post, discovered irregularities at the cemetery. I 
think it was June 2010, almost a year later, that the Secretary 
of the Army responded. We have had a hearing in 2011. Now it is 
2012. We are years into this, and to my knowledge not one 
person, either military or civilian, has been punished in any 
way for one of the worst scandals in the 150-year history of 
Arlington National Cemetery.
    Now, as this was going on, we have learned from the news 
media that the Air Force has apparently improperly disposed of 
the remains, the ashes, of over 200 airmen and women. To my 
knowledge, there has been no accountability there either. Now, 
that is a newer scandal. But what is going on here?
    And I love your new systems. And I think accountants are 
great, and I love software, and accurate recordkeeping is 
great. But we must remember this is a core function of the U.S. 
military, and has been since the founding of the services. 
There is no more premier location than Arlington, and no 
reprimand, no punishment, no accountability. We haven't even, 
in this hearing at least, identified the folks to be held 
accountable. And I love looking forward, and I love optimism, 
and I do think great progress has been made by the current 
folks. But how do I look folks in the eye back home and say 
there has been accountability?
    When you talk about whether it should be an Army or a VA 
facility, who in the Army was in charge? And this is way beyond 
the realm of the GAO and folks like that, and you are excellent 
witnesses, and I appreciate the limits on your supervision, but 
this hearing is about accountability at Arlington, and the best 
I can tell, there is none, at least in terms of holding the 
wrongdoers accountable.
    So what are we going to do about this? This is years into 
the investigation. Members of Congress that run for office 
hoping to hold investigative hearings on cemetery 
accountability, presumably this will be handled responsibly. 
But I am getting tired of waiting years into the investigation. 
Now, I want to be fair to all involved, but this is years that 
have passed. Is it going to take 3 years to find out what 
happened to the ashes of the airmen that were apparently dumped 
in a dumpster? What is going on here?
    So I hope that these committees will not be part of any 
sweeping under the rug, any whitewash. But as the years click 
by, shouldn't there be not just an accounting, but 
accountability?
    Thank you, Mr. Chairman. As you know, I did not take an 
opening statement. I did not want to stress the committee here. 
But I think we have more work to do in this area.
    Mr. Wilson. Thank you very much for your inquiries, which 
certainly need to be addressed.
    At this time we have Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Cooper is a hard act 
to follow.
    I am a CPA, and I am trying to figure out the recordkeeping 
process, which I do think is core to some of the stuff that 
went on. The report went through an era-based model where the 
various eras, and starting in 1999, there is something called 
the BOSS system that is, I guess, a VA cemetery system. And did 
you have anybody look at kind of the state of the art for--I 
mean, there are people who control cemeteries and burials, you 
know, all over the United States, and there is a full industry 
of that that does it. There is nothing unique about handling 
remains and burying folks to the military. We honor those folks 
a little bit more than the general. So help me understand what 
the current BOSS system is versus a system you would normally 
find in a relatively modern cemetery operation.
    Ms. Condon. Congressman Conaway, the BOSS system is the 
Veterans Affairs system, their Burial Operations Scheduling 
System that the VA----
    Mr. Conaway. Which is just scheduling.
    Ms. Condon. It does scheduling. And it also is the system 
that the gravestones, the markers, are ordered from. So that is 
how Arlington uses the BOSS system.
    Mr. Conaway. All right. So it is not--well----
    Ms. Condon. It is a scheduling system that VA uses.
    Mr. Conaway. What is ISS?
    Ms. Condon. Interment Scheduling System was the scheduling 
system that Arlington--it was something that I inherited on 
June 10, and that is the scheduling system that we use at 
Arlington to schedule our services. The difference between that 
and the BOSS system is the variables for a burial at Arlington 
are somewhat different. It is because you are coordinating the 
chapels and all the services and so forth. But, Congressman 
Conaway, we are working with VA on the interface between the 
two systems that are required.
    Mr. Conaway. If BOSS is just scheduling, why do you need 
two?
    Ms. Condon. It is the system that you--we don't need two. 
The bottom line is we need a scheduling system. But more than 
that, we just need accountable data. So it doesn't matter what 
system you use there to schedule a service, it is all about the 
data.
    Mr. Conaway. Okay. So services are being held at Arlington 
today. Help us understand what the records look like for a 
particular service. And is it a combination of handwritten 
records, or is it all automated? It is all captured 
electronically? Or what is the current state of affairs?
    Ms. Condon. Sir, I am very proud to state for those members 
of the committee who have actually been to Arlington and 
actually saw the paper records and the Kardex machine, our 
interment scheduling branch right now does not have one paper 
record in it. Everything is digital. All of the records now are 
digital.
    Mr. Conaway. I understand scheduling, but somewhere in your 
records you keep track of who is buried where.
    Ms. Condon. Yes, sir.
    Mr. Conaway. There are services being held today. And so 
those long-term records--once the services are done, the 
scheduling to make sure that the honor guard was there and 
everything got taken care of, going forward, though, we need to 
keep track of who is buried where. What does that data set look 
like?
    Ms. Condon. That data set, sir, follows the exact data that 
we reported in the December 22 report to this Congress. This 
way forward, we will have a photo of the front and back of 
every gravesite and niche, and electronically attached to that 
will be all of the records pertaining to that service. That is 
how we are accounting for each and every burial not only for 
the report that we did to Congress, but from this day forward. 
So our employees, now when a headstone is set, take the photo 
of the front and back of that headstone and attach that 
digitally to the records.
    Mr. Conaway. And the record is all electronic.
    Ms. Condon. The record is all electronic.
    Mr. Conaway. So this is a little crude. Maintaining the 
inventory of folks who are buried where, that is fully 
electronic now for all new interments?
    Ms. Condon. Yes, sir, it is.
    Mr. Conaway. Okay. Thank you, Mr. Chairman.
    Yield back.
    Mr. Wilson. Thank you very much, Mr. Conaway.
    We proceed to Mr. Critz of Pennsylvania.
    Mr. Critz. Thank you, Mr. Chairman. I am trying to get my 
arms around this. Mr. Lepore, you said that in the 1970s at 
some point, jurisdictional responsibility for--is it every 
other national, or any other veterans cemetery was transferred 
to the VA?
    Mr. Lepore. The Army at that time managed 82 national 
cemeteries, and under the 1973 National Cemeteries Act, those 
cemeteries transferred to the Department of what was then just 
the VA, now the Department of Veterans Affairs, except for two. 
Arlington did not transfer, and the Soldiers' and Airmen's Home 
National Cemetery here in Washington did not transfer. The Army 
retained those.
    Mr. Critz. Okay. Is there any trouble like we are 
experiencing at Arlington at any of these other cemeteries?
    Mr. Lepore. We have not audited anybody beyond the 
activities at Arlington, so I really can't say. I certainly 
have seen some press accounts, but we have not--our audit was 
focused on Arlington.
    Mr. Critz. Prior to what was reported, what is that, almost 
4 years ago, had there ever been an audit of Arlington's 
recordkeeping prior?
    Mr. Lepore. I am not aware of one by GAO. I do not know 
whether the inspector general had ever done one, but we had 
not, to my knowledge.
    Mr. Critz. Was Arlington's, we will call it for lack of a 
better term, management required to report, at the end of 
fiscal years or at any point, back to the Army budgetary 
processes, anything that had happened during the year?
    Mr. Lepore. I am not aware of that, but Ms. Condon may be 
in a better position to answer that than I am.
    Ms. Condon. Sir, Arlington, the management of Arlington, 
you know, as you do your research has to report to the 
Department of the Army.
    Mr. Critz. So, but it is just gross numbers, we had this 
many ceremonies, not specifics?
    Ms. Condon. It would be from a resource standpoint----
    Mr. Critz. Right.
    Ms. Condon [continuing]. It would be the resources required 
to run the cemetery.
    Mr. Critz. Going through the gravesite accountability study 
findings, you know, obviously, this is a complex issue. As you 
read through subsections that--you know, sections within, and 
then subsections within, if they are not clearly marked, there 
are going to be issues.
    Do we have any recollection of anywhere before 2008, any 
report where we have some issues because we are finding 
sections that have people in them that aren't supposed to have 
them, or we are finding grave markers that have no people 
there? Is there anything prior to this 2008 sort of disaster?
    I guess the question would be: How long have you folks been 
involved in this other than just since we started this process?
    Ms. Condon. Well, sir, I can start with that one. My first 
day was on June 10, 2010, when Secretary McHugh created the 
executive director position--Mr. Cooper--to be accountable for 
the management and the operation of Arlington.
    Mr. Critz. So everyone is just pretty much just since 2008. 
And, sir, you just came on board very recently.
    General Vangjel. Personally, yes, sir, but I do know that 
there were operational assessments that were conducted at 
Arlington Cemetery based on my document research that I did as 
I have come on the job, 1996, 1997, 1998, by the Military 
District of Washington, because they had, in fact, had 
oversight responsibility at that time.
    Mr. Critz. And nothing was reported in any of those 
reports?
    General Vangjel. Nothing that had to do with any kind of 
mismarked graves or accountability of graves was reported 
during that particular time, no, sir.
    Mr. Critz. Since the digital system came on in 1999, is 
there any documentation of issues of mismarked graves since 
1999 forward? Maybe in your audit report, is there anything? 
Now, prior to 1999, obviously, we have some issues because of 
paper records, and, you know, hopefully there are cemeteries 
across the country that have existed prior, but notwithstanding 
that, anything since 1999 when we went digital where there has 
been an issue?
    Mr. Lepore. We did not attempt to go back that far, and let 
me tell you, Congressman, the reason we didn't. The Gravesite 
Accountability Task Force was in the process of reviewing all 
350,000 or so records. There are some differences on what the 
actual number is, as it turns out, but they were in the process 
of reviewing every record, and so it didn't seem very fruitful 
for us to do that work since we already had an organization 
doing that, and, as you know, the Gravesite Accountability Task 
Force report was just issued late December, I believe it was.
    Mr. Critz. Right. Right.
    Well, you know, I am new to the committee, but obviously, I 
am listening to Mr. Cooper because we are talking about 
accountability, and we have--these issues should have come up 
long before. I am sure that someone knew this. This just didn't 
pop up since 2008, and it is interesting to me that we have no 
players that have been identified as having gross mismanagement 
of that, and I yield back. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Critz.
    We proceed to Mr. Coffman of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman, and thank you, all of 
you, for your testimony and for your service to our country.
    My concern as a Marine Corps combat veteran is specific to 
the remains of those who have been lost particularly in 
Afghanistan, or Iraq, and certainly anyone lost in combat. And 
I can remember being in Iraq that there was extraordinary care 
and respect paid to those that have--that fell on the 
battlefield. And where I see the breakdown, whether it is with 
the Air Force at Dover, or the Army at Arlington, is the fact 
that you have civilian personnel, whether by the Army or by the 
Air Force, that, number one, come from a different culture 
where that respect may or may not be there, but it is not 
necessarily shared, but, more importantly, are not subject to 
the Uniform Code of Military Justice [UCMJ].
    When there is a violation of a regulation, it is, in 
effect, a lawful order, and uniform military personnel can be 
prosecuted under the Uniform Code of Military Justice, where 
civilian personnel are not accountable to the Uniform Code of 
Military Justice for the violation of the same regulation. And 
I really think that if anything comes out of these hearings, 
that the chain of custody for those who have fallen in battle, 
that chain of custody for the remains of those who have fallen 
must be by uniformed military personnel only. And because that 
is what is most upsetting about this is that we are in this 
discussion saying, oh, things are getting better; oh, things 
are changing. Let me tell you this: If this all were handled--
and I understand support services, and so I am narrowly 
defining something that I really think ought to be changed in 
respect for those who have fallen on the battlefield--that I 
just don't believe we would be in this situation right now, 
having had a career between the United States Army and the 
Marine Corps. We are in the kind of discussions that we have 
had about the kind of dereliction of duty that has befallen 
Arlington, and Dover--I know Dover is not a part of this 
discussion today--but I simply don't believe we would be here 
today if we were doing that.
    Now, I understand there is a broader question, and we are 
talking about retired military personnel. We are talking about 
dependents. We are talking about other things. But if there is 
anything that as a combat veteran that I believe must come out 
of these hearings, it is, again, that only U.S.--uniformed U.S. 
military personnel handle the remains of those who have fallen 
in battle. And I open it up if anybody would like to comment on 
that.
    Thank you, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you very much, Mr. Coffman, and you raise 
a really good point about the UCMJ.
    We proceed to Mr. Runyan, of New Jersey.
    Mr. Runyan. Thank you, Mr. Chairman.
    And I somewhat agree with what my colleague Mr. Coffman has 
kind of said. I think we all agree, we kind of have our arms 
around this. But we have to put teeth to it.
    We talk about accountability, and I have had the fortunate 
opportunity to actually chair the VA Subcommittee on Disability 
Assistance and Memorials, so I obviously have dual jurisdiction 
here. And we are beginning, obviously, with Sam Houston 
Cemetery, experiencing some of these same pitfalls that we have 
here at Arlington, unfortunately. Again, the word 
``accountability'' comes up time and time again. And if there 
are no teeth to anything we are doing, actions have 
consequences. No one has the fear of a consequence coming down; 
whether it is through contracting, whether it is through your 
predecessor. How do we do this? Do we do it through the 
contractor? Do we have to do it through legislation, through 
this committee?
    I mean, obviously, my colleague Mr. Coffman has a 
legitimate pathway to address that issue, but I think there are 
multiple factors that have to be in there. But we have to hold 
the people accountable. At the root of it, I think most of 
these problems go away. And I think also, and I think as we are 
moving forward, Ms. Condon, with how our--our plan, and I know 
you are still building the roadmap of ``you can take this 
manual and hand it to your predecessor.'' I know we are 
building that, but to have those teeth in those procedures 
also, and, throughout the process of gaining the information 
and the pitfalls that you are finding from your predecessor, to 
make sure that all of that information is in there.
    Because it truly is a disgrace what we have done to this 
cemetery and, frankly, to what I am finding in the VA. And I 
know, being briefed by the VA people, that you guys are working 
very closely together because you have a lot of similar 
problems and to share those experiences. And I hope we can work 
together on that aspect because I know how a lot of this--how a 
lot of this works: This is my problem; that is their problem. 
No. It is the American people's problem. It is our soldiers. It 
is our taxpayers at the end of the day. And there are people 
that need to be held accountable, and I think that as a 
committee we have to find a way to do that.
    And I applaud you all for your efforts here, but there are 
a lot of things that it hurts. It hurts people every day when 
these loved ones call up and say, I don't know if my loved one 
is buried where you say they are buried. And there are some of 
them that we can't even prove. It is heartbreaking to have to 
go through that kind of stuff.
    So I know we have our arms around it. I think we truly, and 
I will say it again, sink our teeth into it and make sure that 
this never happens again. And I thank you all for your 
testimony, and, Chairman, I yield back.
    Mr. Wilson. Thank you very much for your heartfelt 
comments, Mr. Runyan, and at this time, unless there is any 
further question, we shall again thank the witnesses for being 
here, thank you for making a difference. Again, Arlington, the 
shrine of our country, the respect that we have for our service 
members, military families, veterans, this is so important.
    And I would like now to proceed to Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I also would like to 
thank the witnesses.
    I think there are a couple of things here that all of us on 
the committee would like to know today. I think Mr. Cooper 
brings up a great point on accountability, and about past 
actions, current investigations. I think all of us feel like a 
sufficient amount of time has passed where those investigations 
should have reached their conclusion. There should be findings, 
and there should be actions. So I think I know that our 
committee would expect from you, General Vangjel, and from you, 
Ms. Condon, some indication about where that is.
    And I realize it may not be under your direct jurisdiction. 
I realize it is probably internal investigations within the 
Army, but I am sure that you can pass on to the Army leadership 
there that I think both of our committees would like a 
definitive answer as to where that goes on. And I realize Mr. 
Cooper's frustration, because at our last meeting, at our last 
hearing, the same questions were asked about when we could 
expect findings and actions. And as Mr. Cooper pointed out, 
they spent a long time, and I think all of us think it is very 
reasonable that a conclusion should have been reached by this 
particular point in time.
    So I hope that that comes back to both of our committees so 
we understand where things are. I think that is an 
extraordinarily important question. We talked about some of the 
nuts and bolts today. That is one of those efforts hanging out 
there that I think leaves us all in a very uncomfortable 
position. I thank Mr. Cooper for bringing it up. I know it is a 
difficult, but a very, very important issue for this, and we 
look forward to hearing something definitive back from the Army 
as to where that is. And----
    Mr. Wilson. I believe, excuse me, General Vangjel wanted to 
comment on that.
    General Vangjel. Yes, Congressman, if I could, please. As 
we went through the investigation for what we have with the two 
outstanding issues, the urns and gravesite reservations in 
particular, as we move forward, we look at violations of policy 
guidance. If it is criminal, we hand it over to the Criminal 
Investigation Division [CID]. They have completed their 
investigations with the Department of Justice now. So that is 
the decision, and that is what we are told in the Army, they 
are making the determination on prosecution. So what we will do 
is we will do the best we can to get information from them, and 
we can provide that to the committee. But ultimately, right 
now, it is under the jurisdiction of the Department of Justice 
[DOJ].
    Mr. Wittman. I think that would be great. If you could let 
us know when CID passed it over to the Justice Department, and 
who it is there so these committees can communicate with the 
Justice Department to get from them an idea about timeframe.
    General Vangjel. Absolutely, Congressman, I will do.
    Mr. Wilson. Thanks. I look forward to working with Chairman 
Wittman and our ranking members, too, in regard to possible CID 
and DOJ officials to come and let us know what the status is, 
because this would be beyond your purview, but there should be 
accountability, and we can't proceed without it.
    General Vangjel. Yeah.
    Mr. Wittman. And I think, too, another thing to take from 
today that I ask all of you to consider, I think the suggestion 
that the leadership chain include somebody in uniform to make 
sure the Uniform Code of Military Justice is something that 
reigns, that is something that is a very, very significant 
suggestion, one that, as strategic planning and organization 
plans are looked at, that--I mean, it is something that garners 
your serious consideration. I want to thank Mr. Coffman for 
bringing that up.
    Mr. Wilson. Any further? If not, we shall be adjourned. 
Thank you, again, everyone, for being here today.
    [Whereupon, at 1:05 p.m., the subcommittees were 
adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            February 3, 2012

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 3, 2012

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2936.001
    
    [GRAPHIC] [TIFF OMITTED] T2936.002
    
    [GRAPHIC] [TIFF OMITTED] T2936.003
    
    .eps[GRAPHIC] [TIFF OMITTED] T2936.004
    
    [GRAPHIC] [TIFF OMITTED] T2936.005
    
    [GRAPHIC] [TIFF OMITTED] T2936.006
    
    [GRAPHIC] [TIFF OMITTED] T2936.007
    
    [GRAPHIC] [TIFF OMITTED] T2936.008
    
    [GRAPHIC] [TIFF OMITTED] T2936.009
    
    [GRAPHIC] [TIFF OMITTED] T2936.010
    
    [GRAPHIC] [TIFF OMITTED] T2936.011
    
    [GRAPHIC] [TIFF OMITTED] T2936.012
    
    [GRAPHIC] [TIFF OMITTED] T2936.013
    
    [GRAPHIC] [TIFF OMITTED] T2936.014
    
    [GRAPHIC] [TIFF OMITTED] T2936.015
    
    [GRAPHIC] [TIFF OMITTED] T2936.016
    
    [GRAPHIC] [TIFF OMITTED] T2936.017
    
    [GRAPHIC] [TIFF OMITTED] T2936.018
    
    [GRAPHIC] [TIFF OMITTED] T2936.019
    
    [GRAPHIC] [TIFF OMITTED] T2936.020
    
    [GRAPHIC] [TIFF OMITTED] T2936.021
    
    [GRAPHIC] [TIFF OMITTED] T2936.022
    
    [GRAPHIC] [TIFF OMITTED] T2936.023
    
    [GRAPHIC] [TIFF OMITTED] T2936.024
    
    [GRAPHIC] [TIFF OMITTED] T2936.025
    
    [GRAPHIC] [TIFF OMITTED] T2936.026
    
    [GRAPHIC] [TIFF OMITTED] T2936.027
    
    [GRAPHIC] [TIFF OMITTED] T2936.028
    
    [GRAPHIC] [TIFF OMITTED] T2936.029
    
    [GRAPHIC] [TIFF OMITTED] T2936.030
    
    [GRAPHIC] [TIFF OMITTED] T2936.031
    
    [GRAPHIC] [TIFF OMITTED] T2936.032
    
    [GRAPHIC] [TIFF OMITTED] T2936.033
    
    [GRAPHIC] [TIFF OMITTED] T2936.034
    
    [GRAPHIC] [TIFF OMITTED] T2936.035
    
    [GRAPHIC] [TIFF OMITTED] T2936.036
    
    [GRAPHIC] [TIFF OMITTED] T2936.037
    
    [GRAPHIC] [TIFF OMITTED] T2936.038
    
    [GRAPHIC] [TIFF OMITTED] T2936.039
    
    [GRAPHIC] [TIFF OMITTED] T2936.040
    
    [GRAPHIC] [TIFF OMITTED] T2936.041
    
    [GRAPHIC] [TIFF OMITTED] T2936.042
    
    [GRAPHIC] [TIFF OMITTED] T2936.043
    
    [GRAPHIC] [TIFF OMITTED] T2936.044
    
    [GRAPHIC] [TIFF OMITTED] T2936.045
    
    [GRAPHIC] [TIFF OMITTED] T2936.046
    
    [GRAPHIC] [TIFF OMITTED] T2936.047
    
    [GRAPHIC] [TIFF OMITTED] T2936.048
    
    [GRAPHIC] [TIFF OMITTED] T2936.049
    
    [GRAPHIC] [TIFF OMITTED] T2936.050
    
    [GRAPHIC] [TIFF OMITTED] T2936.051
    
    [GRAPHIC] [TIFF OMITTED] T2936.052
    
    [GRAPHIC] [TIFF OMITTED] T2936.053
    
    [GRAPHIC] [TIFF OMITTED] T2936.054
    
    [GRAPHIC] [TIFF OMITTED] T2936.055
    
    [GRAPHIC] [TIFF OMITTED] T2936.056
    
    [GRAPHIC] [TIFF OMITTED] T2936.057
    
    [GRAPHIC] [TIFF OMITTED] T2936.058
    
    [GRAPHIC] [TIFF OMITTED] T2936.059
    
    [GRAPHIC] [TIFF OMITTED] T2936.060
    
    [GRAPHIC] [TIFF OMITTED] T2936.061
    
    [GRAPHIC] [TIFF OMITTED] T2936.062
    
    [GRAPHIC] [TIFF OMITTED] T2936.063
    
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
